Akin Gump

Strauss Hauer & Feld up

PRATIK A. SHAH
+1 202.887.4210/fax: +1 202.887.4288
pshah @ akingump.com

September 27, 2019
VIA HAND DELIVERY

The Hon. Scott S. Harris

Supreme Court of the United States
1 First Street NE

Washington, D.C. 20543

Re: Kalev Mutond, et al. v. Darryl Lewis, No. 19-185
Dear Mr. Harris:

The petition for a writ of certiorari in this case was filed on August 9, 2019,
and placed on this Court’s docket on August 12, 2019. Although respondent initially
waived his right to respond to the petition, by letter dated August 26, 2019, the Court
requested that a response be filed. That response is currently due for filing on
October 15, 2019. Respondent respectfully requests an extension of time for filing
the response to and including November 14, 2019. The additional time is necessary
due to the heavy press of matters before this Court and other courts.

Sincerely yours,
fa adbn/A-

Pratik A. Shah

cc: John Patrick Elwood, Counsel of Record for Petitioners (via overnight
delivery)

pig (e+

Robert S. Strauss Tower 2.887.4288 | akingump com
